                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Improvement Required to
                     Safeguard Enforcement and
                     Inspection Credentials
                     Report No. 12-P-0328                March 9, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Allison Dutton
                                                   Christine El-Zoghbi
                                                   Eric Lewis
                                                   Ryan Patterson




Abbreviations

EPA           U.S. Environmental Protection Agency
OARM          Office of Administration and Resources Management
OECA          Office of Enforcement and Compliance Assurance
OIG           Office of Inspector General




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                12-P-0328
                                                                                                           March 9, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Improvement Required to Safeguard
We initiated this project to
                                    Enforcement and Inspection Credentials
determine whether sufficient
controls exist over credential       What We Found
management in accordance
with U.S. Environmental             Some internal controls over credentials were not being implemented. In
Protection Agency (EPA)             Region 3, where we conducted an in-depth review, we initially found that the
Order 3510, “EPA Federal            required annual 10 percent inventory of credentials had not been completed for
Credentials for Inspections and     EPA personnel and was not being documented for non-EPA personnel. As of
Enforcement of Federal              February 15, 2012, OARM personnel informed us that all regions, with the
Environmental Statutes.”            exception of Region 5, have completed their EPA employee credential inventory
                                    for 2011. The credential-holder signature upon receipt of a new credential was
Background                          also not being collected for all EPA employees.

The Office of Administration        Also, safeguards for EPA’s enforcement credential program could be improved.
and Resources Management
(OARM) and the Office of               	 There is no timeline requirement for EPA employees to report the
Enforcement and Compliance                loss/theft of a credential. Failing to report this information in a timely
Assurance (OECA) manage                   manner could put the integrity of the credential at risk.
credentialing of EPA and               	 On the credential justification form used by EPA employees, requesting
non-EPA employees. The order              officials are only required to provide a signature, and not their title or any
sets forth procedures for use by          contact information. Approving officials must provide a signature and
compliance employees in                   title, but not their printed name or contact information. Illegible
issuing EPA credentials. The              signatures make identifying the parties on the form difficult.
order will be revised in fiscal        	 EPA Order 3510 does not identify what level of authority is required to
year 2012.                                approve a request for a credential. This creates a security vulnerability by
                                          allowing individuals at any level to approve requests for credentials.

                                     What We Recommend

                                    We recommend that the Assistant Administrators for OARM and OECA comply
                                    with the internal controls of EPA Order 3510 and revise EPA Order 3510 to
                                    include certain provisions that will improve enforcement and inspection
For further information, contact    credentialing. EPA agreed with all our recommendations and provided milestone
our Office of Congressional and     dates for all recommendations.
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20120309-12-P-0328.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                 THE INSPECTOR GENERAL




                                          March 9, 2012

MEMORANDUM

SUBJECT:	 Improvement Required to Safeguard Enforcement and Inspection Credentials
          Report No. 12-P-0328


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Craig Hooks
               Assistant Administrator
               Office of Administration and Resources Management

               Cynthia Giles 

               Assistant Administrator     

               Office of Enforcement and Compliance Assurance 



This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

As noted in the report, the Agency has agreed with our recommendation and provided
satisfactory completion dates for remaining actions. Therefore, this report is considered closed,
and a corrective action plan is not necessary. However, the outstanding required actions will
remain open until completed.

We have no objections to the further release of this report to the public. We will post this report
to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Eric Lewis, Director
for Special Reviews, at (202) 566-2664 or eric.lewis@epa.gov.
Improvement Required to Safeguard                                                                                              12-P-0328
Enforcement and Inspection Credentials


                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 2


   Results of Review .......................................................................................................          3


           Some EPA Order 3510 Internal Controls Are Not Being Implemented ................                                           3

           Safeguards for EPA’s Enforcement Credential Program Could Be Improved......                                                4


   Recommendation ........................................................................................................            5


   Agency Comments on Draft Report ..........................................................................                         5


   Status of Recommendations and Potential Monetary Benefits..............................                                            6




Appendices
   A       Agency Comments on Draft Report .................................................................                          7


   B       Distribution .........................................................................................................    10 

Purpose

            The Office of Inspector General (OIG) evaluated the U.S. Environmental
            Protection Agency’s (EPA’s) controls over its enforcement and inspection
            credentials program.

Background
            Certain EPA organizations are responsible for issuing and managing federal
            credentials provided to employees of EPA, states, tribes, territories, contractors,
            and grantees, as well as employees of other federal agencies. These credential-
            holders are authorized by EPA to conduct inspections or investigations and take
            samples on EPA’s behalf under various federal environmental statutes. EPA
            federal credentials provide the credential holder broad access to establishments,
            facilities, and other properties for the purpose of:

                  Inspecting relevant activities and components, including records,
                   processes, equipment, and products;
                  Taking photographs/videos; and
                  Collecting documentary and physical samples.

            EPA Order 3510, “EPA Federal Credentials for Inspections and Enforcement of
            Federal Environmental Statutes,” sets forth procedures for use by compliance
            employees in issuing EPA credentials. The order will be revised in fiscal year 2012.
            The Office of Enforcement and Compliance Assurance (OECA) is responsible for
            maintaining EPA Order 3510. Under the Order, the Office of Administration and
            Resources Management (OARM) and OECA divide responsibilities for credential
            management. Per EPA Order 3510, OECA has primary responsibility for the
            credentials program, including establishing policy, procedures, and guidance for
            issuing credentials to EPA and non-EPA employees, and establishing training
            requirements for employees. OARM has administrative responsibility for
            credentials issued to EPA employees.

            To request a new credential, the sponsoring office must submit a Credential
            Justification Form for EPA Employees or the form titled “Required Form for
            Requesting Credentials from Headquarters,” commonly referred to as
            “Appendix B” in the case of non-EPA employees. These request forms indicate the
            supervisor’s requirement for the individual to have a credential and confirm that the
            individual has completed all required training. Once the form is signed by the
            applicant, the requesting official, and the senior manager such as the Assistant
            Administrator or Regional Administrator, the form is sent along with a photo of the
            applicant to headquarters for approval and processing. Once received, the form is
            approved by OARM for EPA employees or by OECA for non-EPA employees and
            the credential is produced. EPA employee credentials are valid for up to 3 years.
            Non-EPA employee credentials bear an expiration date consistent with the time
            frame mentioned in their cooperative agreement, but no longer than 3 years.


12-P-0328                                                                                         1
            EPA Order 3510 provides some guidelines on how to safeguard the credentials.
            The order requires that credential holders report a lost/stolen credential to EPA.
            The order requires OARM to conduct an inventory verifying that the employee
            issued the credential has the credential in his/her possession. The order also
            requires OECA to maintain an inventory of unissued state/tribal credentials and
            develop procedures for an annual inventory. According to EPA Order 3510,
            10 percent of the active credentials must be inventoried annually.

Scope and Methodology

            We conducted this evaluation from June to December 2011 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the evaluation to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            evaluation objectives. We believe that the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our evaluation
            objectives.

            We limited our scope to EPA’s federal enforcement and inspection credentials.
            We did not examine EPA’s management of its law enforcement credentials or
            credentials issued by the OIG.

            We identified and described EPA’s infrastructure for managing and controlling
            credentials, the personnel, guidance, training, procedures, and electronic systems
            involved. We reviewed databases for both OARM, and OECA. This review
            included documentation of credential management at a national level and in
            Regions 1, 3, 8, and 10. We also conducted interviews with personnel from
            OARM and OECA regarding national practices in credential management.

            We conducted an in-depth review of credential management in one region—
            Region 3. According to EPA Order 3510, regions have identical responsibilities
            with regard to credentials. Region 3 manages approximately 10 percent of all
            EPA and non-EPA employee credentials. We looked in detail at each individual
            credential in Region 3. This review included request for credential forms and
            electronic databases detailing credential numbers, statutes, and expiration dates.

            For each credential in Region 3, we sought to find documentation of:

                Request for credential with appropriate signatures,
                Completion of required training, and
                Accurate credential number and expiration date on all paperwork and
                  electronic databases.




12-P-0328                                                                                        2
Results of Review

            Some internal controls over credential management were not being implemented.
            EPA Order 3510 assigns responsibilities for managing credentials, including
            specific procedures for issuing credentials, tracking existing credentials,
            organizing and conducting training, and safeguarding credentials. In Region 3,
            where we conducted an in-depth review, we initially found that the required
            annual 10 percent inventory of credentials had not been completed for EPA
            personnel for 2011 and was not being documented for non-EPA personnel.
            According to OARM, most regions have completed their EPA employee
            credential inventory for 2011. Also, safeguards for EPA’s enforcement credential
            program could be improved. For example, EPA Order 3510 includes no timeline
            for EPA employees to report lost/stolen credentials. Therefore, some EPA
            employees are reporting their credentials lost/stolen months after last seen. Also,
            the credential justification form requires a signature but not a printed name, title,
            or contact information for requesting officials. The form requires a signature and
            title but not printed name or contact information for approving officials. Illegible
            signatures make identifying the parties on the form difficult.

            Some EPA Order 3510 Internal Controls Are Not Being Implemented

            According to the Office of Management and Budget, internal controls should be
            designed to provide reasonable assurance regarding prevention or prompt
            detection of unauthorized acquisition, use, or disposition of an agency’s assets.
            EPA Order 3510 includes at least two procedures designed to prevent
            unauthorized use of EPA federal credentials. These include the annual 10 percent
            inventory of credentials and the signature required from each credential holder
            acknowledging acceptance of the credential.

            In August, 2011, Region 3 personnel informed us that they had not yet conducted
            the 2011 annual inventory for EPA employees and had not received official
            guidance for the inventory. We also found that Region 3 reported conducting an
            annual inventory for non-EPA employees, but there was no documentation to
            support this. While the regions have been contacted in the past regarding the
            inventory for EPA employees, they had not been given specific instructions from
            OARM on how to conduct it. EPA Order 3510 requires OARM to develop a
            protocol for the annual inventory. Given the EPA Order 3510 requirement, we
            were planning to recommend that OARM provide direction to complete and
            document the inventory. Before this report was issued, OARM issued guidance to
            complete and document the inventory. The inventory was required to be
            completed by December 31, 2011. OARM personnel informed us that, as of
            February 15, 2012, all regions with the exception of Region 5 have completed
            their credential inventory.

            A second internal control, the credential holder signature on the acknowledgment
            statement, was not always being collected as required for EPA employees. The


12-P-0328                                                                                       3
            acknowledgment statement indicates that the credential holder agrees to comply
            with the provisions of the order, including those which require safeguarding the
            credential. For Region 3 EPA employees, we found that the region and
            headquarters were missing 31 of 223 (14 percent) acknowledgment signatures.
            The credential holder signature internal control seeks to guarantee an accurate
            inventory of credentials and ensure that personnel agree to comply with credential
            provisions, including safeguarding of the credential. The lack of approximately
            14 percent of the required signatures compromises this internal control.

            Safeguards for EPA’s Enforcement Credential Program Could Be
            Improved

            According to OARM and OECA, approximately 2,000 credentials are currently
            issued to EPA employees and 600 to non-EPA employees. EPA Order 3510
            requires that non-EPA employees report the loss/theft of a credential within
            72 hours. There is no timeline requirement for EPA employees to report the
            loss/theft of a credential. We found that some EPA employees were reporting
            their credentials lost/stolen months after last seen. Failing to report this
            information in a timely manner could put the integrity of the credential at risk.
            The order should require that EPA employees report credential loss/theft within
            72 hours.

            On the credential justification form used by EPA employees, requesting officials
            must provide a signature, but they do not need to print their name, title, or any
            contact information. Approving officials must provide a signature and title, but
            not their printed name or contact information. Illegible signatures make
            identifying the parties on the form difficult. Such information might be needed to
            confirm the validity of the credential and the holder. Also, contact information
            can be used to confirm that the credential holder meets training requirements and
            certify the need for the credential, as specified in the order. Therefore, the order
            should ensure that the credential request form contains the requesting and
            approving officials’ printed name, title, and contact information.

            EPA Order 3510 indicates that the individual who approves a request for
            credential is “usually the Division Director, Regional Administrator, or Lab
            Director.” The use of the term “usually” to identify the level of authority required
            to approve a request for credentials is unclear. This vague statement allows
            individuals at any level of authority throughout the Agency to approve requests
            for credentials. To ensure management approval at a standard level throughout the
            Agency, the order should specifically identify what level of authority is required
            to approve a request for a credential.




12-P-0328                                                                                          4
Recommendation

            We recommend that the Assistant Administrator for Administration and
            Resources Management and the Assistant Administrator for Enforcement and
            Compliance Assurance:

                   1.	 Comply with the internal controls of EPA Order 3510 to ensure
                       credential safeguards, including collection of the credential holder
                       signature, and revise the order to include the following provisions:

                           a.	 Require EPA employees to report credential loss/theft within
                               72 hours.
                           b.	 Require that requesting and approving officials provide their
                               printed name, title, and contact information on the request for
                               credential form.
                           c.	 Specify the level of management required to approve a request
                               for credential.

Agency Comments on Draft Report

            In its response to the draft report, the Agency agreed with our findings and
            indicated it will work to resolve the issues immediately. The Agency’s response is
            included in its entirety in appendix A. In addition, the Agency provided us with an
            email indicating it will contact the regions by February 16, 2012, to remind them
            of the importance of being compliant with the credential holder signature
            requirement. The Agency also plans to capture the 31 missing signatures from
            Region 3 EPA employees.

            We are satisfied with the Agency’s actions to date to address our
            recommendation, and concur with the proposed dates of completion for remaining
            actions. As this report is now closed, a corrective action plan is not necessary.
            However, the outstanding required actions will remain open until completed,
            including completion of the 2011 annual inventory for all regions.




12-P-0328                                                                                     5
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1        Action Official             Date      Amount      Amount

     1        5     Comply with the internal controls of EPA Order            O       Assistant Administrator for   9/30/2012
                    3510 to ensure credential safeguards, including the                  Administration and
                    collection of the credential holder signature, and                 Resources Management
                    revise the order to include the following provisions:                        and
                                                                                      Assistant Administrator for
                                                                                          Enforcement and
                                                                                       Compliance Assurance

                      a.   Require EPA employees to report credential         O                                     9/30/2012
                           loss/theft within 72 hours.

                      b.   Require that requesting and approving              O                                     9/30/2012
                           officials provide their printed name, title,
                           and contact information on the request for
                           credential form.

                      c.   Specify the level of management required           O                                     9/30/2012
                           to approve a request for credential.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0328                                                                                                                                               6
                                                                                      Appendix A

                  Agency Comments on Draft Report


MEMORANDUM

SUBJECT:	 Response to Draft Report: Improvement Required to Safeguard Enforcement and
          Inspection Credentials, OPE-FY11-0014

FROM:	         Cynthia Giles
               Assistant Administrator
               Office of Enforcement and Compliance Assurance

               Craig Hooks
               Assistant Administrator
               Office of Administration and Resources Management

TO:    	       Liz Grossman
               Acting Assistant Inspector General
               Office of Program Evaluation
               Office of Inspector General


This memorandum responds to the subject draft report issued on December 19, 2011. We agree with
the report’s findings and will work to resolve the issues immediately.

We have one minor clarification regarding OECA and OARM’s responsibilities for the credential
program. Page 1 of the draft report states: “OARM manages EPA employee credentials while OECA
manages credentialing of non-EPA employees” (p. 1). The draft report should state “Per EPA Order
3510, OECA has primary responsibility for the credential program, including establishing policy,
procedures and guidance for issuing credentials to EPA and non-EPA employees and establishing
training requirements for employees. OARM has administrative responsibility for credentials issued
to EPA employees”.

Our comments and planned actions for resolving the issues are detailed as follows in response to
each recommendation.




12-P-0328                                                                                          7
Draft Report Recommendations

   1. Issue guidance for the conduct of the 10 percent annual inventory of credentials:

      a.	     Draft Report Recommendation: Issue guidance for the conduct of the 10 percent
              annual inventory of credentials (for EPA employees).

              i.	    OARM comments and planned actions to address recommendation: On
                     October 4, 2011, OARM sent each Regional Security Manager guidance on
                     conducting the 10% annual inventory of credentials and a reminder to
                     complete the inventory. The draft report states: “Before this report was
                     issued, OARM issued guidance to complete and document the inventory” (p.
                     3). Timeline: The recommended action has been completed.

     OIG Response: During this evaluation, OIG was planning to recommend that the
     Agency issue guidance for the conduct of the 10 percent annual inventory of credentials
     for EPA employees. Before the issuance of the draft report, EPA did issue this guidance,
     so we did not include the recommendation in the draft report. However, EPA has chosen
     to address this issue as a recommendation in its response to the draft report.


   2. Comply with the internal controls of EPA Order 3510 to ensure credential safeguards,
       including collection of the credential holder signature, and revise the Order to include
       the following provisions:

      a.	     Draft Report Recommendation: Require EPA employees to report credential
              loss/theft within 72 hours.

              i.	    OARM and OECA comments and planned actions to address
                     recommendation: OARM and OECA will work together to develop and add
                     appropriate language to EPA Order 3510 which requires EPA employees to
                     report lost or stolen credentials to the designated OARM contact immediately,
                     or no later than 72 hours. Also, will work to revise EPA Order 3510 to
                     include the new language. Timeline: September 30, 2012.

      b.	     Draft Report Recommendation: Require that requesting officials provide their
              printed title and contact information on the request for credential form (for EPA
              employees).

              i.	    OARM and OECA comments and planned actions to address
                     recommendation: OARM and OECA will work together to develop and add
                     appropriate language to EPA Order 3510 which requires the signature, title,
                     and contact information of the requesting official on the credential request
                     form used for EPA employees. Also, will work to revise EPA Order 3510 to
                     include the new language. Timeline: Fiscal year 2012. With regard to the
                     credential request form used for EPA employees, OARM will revise the form
                     to add lines for the requestor’s printed name, title, and contact information.




12-P-0328                                                                                         8
                     Timeline: OARM will submit a draft revised credential form for management
                     approval by March 1, 2012.

        c.	    Draft Report Recommendation: Specify the level of management required to
               approve a request for a credential.

              i.	    OARM and OECA comments and planned actions to address
                     recommendation: OARM and OECA will work together to develop and add
                     appropriate language to EPA Order 3510 which specifies the management
                     level required to approve a credential request for EPA employees. Also, will
                     work to revise EPA Order 3510 to include the new language. Timeline:
                     September 30, 2012.

Please direct any questions or comments to Julie Tankersley, OECA at (202) 564-7002, or
Tankersley.julie@epa.gov; or Tami Franklin, OARM at (202) 564-9218, or
Franklin.tami@epa.gov.

cc: 	   Lisa Lund, Director, OECA/OC
        Betsy Smidinger, Acting Deputy Director, OECA/OC
        Mamie Miller, Associate Director, OECA/OC
        Gwendolyn Spriggs, OECA/OAP
        Ed Messina, Acting Director, OC/MAMPD
        Rick Duffy, Deputy Director, OC/MAMPD
        Ann Pontius, Deputy Director, OC/MAMPD
        Al Havinga, Director, OC/CPS
        Renee Page, Director, OARM/OA
        Dennis Bushta, Deputy Director, OARM/OA
        Kelly Glazier, Deputy Director, OA/SMD
        Diane Dixon, Chief, OA/SMD/SOB
        Tiye Houston, OA/SMD/SOB
        Sandy Womack, OARM
        Bernie Davis-Ray, OARM
        Jacob Jenzen, OARM
        Christine El-Zoghbi, OIG
        Eric Lewis, OIG
        Ryan Patterson, OIG




12-P-0328                                                                                       9
                                                                                 Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Administration and Resources Management




12-P-0328                                                                                10
